LSC OIG Client Trust Fund Inspection Reports
Home < Reports < Other   Legal Services Corporation Office of Inspector General
Client Trust Fund Inspection Reports
Updated: 10 September 2003
2003
03-006 610010 Central Florida Legal Services 07/2003 46K [PDF]
03-005 744050 Legal Aid of Northwest Texas 04/2003 84K [PDF]
03-004 938004 Legal Aid Service of Oregon 04/2003 97K [PDF]
03-003 339000 Philadelphia Legal Assistance 03/2003 147K [PDF]
03-002 514020 Legal Assistance Foundation of Metropolitan Chicago 03/2003 6K
03-001 517001 Kansas Legal Services, Inc. 11/2002 7K
2002
02-005 436060 Legal Aid Society of Columbus (OH) 09/2002 7K
02-004 122080 Legal Services for Cape Cod & Islands, Inc. 09/2002 7K
02-003 339060 Neighborhood Legal Services Association (PA). 08/2002 10K
02-002 233070 Nassau/Suffolk Law Services Committee, Inc. 12/2001 6K
02-001 122074 South Middlesex Legal Services, Inc. 11/2001 5K
2001
01-008 436040 Legal Aid Society of Greater Cincinnati 11/2001 7K
01-007 524030 Southern Minnesota Regional Legal Services, Inc. 10/2001 7K
01-006 751038 Wyoming Legal Services, Inc. 09/2001 7K
01-005 744100 Texas Rural Legal Aid 08/2001 4K
01-004 634000 Legal Services of North Carolina 07/2001 3K
01-003 254000 Legal Services of the Virgin Islands 05/2001 4K
01-002 805240 Legal Services of Northern California 04/2001 3K
01-001 140000 Rhode Island Legal Services 03/2001 6K
2000
00-013 703050 Southern Arizona Legal Aid 12/2000 5K
00-012 902000 Alaska Legal Services 10/2000 4K
00-011 829050 Nevada Legal Services (Main Office) 09/2000 4K
Reno Branch Office 09/2000 2K
00-010 604041 East Arkansas Legal Services (Main Office) 08/2000 4K
Helena Branch Office 08/2000 4K
00-008 732026 Southern New Mexico Legal Services 06/2000 5K
Roswell Branch 06/2000 3K
Las Cruces Branch 06/2000 4K
00-006 619010 Capital Area Legal Services Corporation 05/2000 6K
00-005 641010 Neighborhood Legal Assistance Program 03/2000 6K
00-003 805260 California Rural Legal Assistance 02/2000 5K
1999
99-020 737056 Legal Aid of Western Oklahoma 01/2000 5K
99-015 805060 Central California Legal Services 09/99 5K
99-011 912000 Legal Aid Society of Hawaii 09/99 11K
99-010 712023 Native Hawaiian Legal Corporation 09/99 7K
99-008 610016 Legal Aid Society of Broward County 05/99 4K
99-007 610020 Florida Rural Legal Services 06/99 7K
99-006 331100 Ocean-Monmouth Legal Services 03/99 6K
99-004 447061 Virginia Legal Aid Society 02/99 4K
URL: http://www.oig.lsc.gov/reports/ctf.htm